 

Case No.

IN THE SUPREME COURT OF THE UNITED STATES

STATE OF KANSAS,
Petitioner

v.

RYAN R. JOHNSON,
Respondent

APPLICATION FOR AN EXTENSION OF TIME
IN WHICH TO FILE A PETITION FOR A WRIT
OF CERTIORARI TO THE KANSAS SUPREME COURT

To the Honorable Sonia Sotomayor, Associate Justice of the United States and
Circuit Justice for the Tenth Circuit:

Pursuant to 28 U.S.C.§ 2101(c) and Rules 13.5, 22, and 30.2 of this Court, the
State of Kansas respectfully requests a 32-day extension of time in which to file a
petition for a writ of certiorari in this Court, to and including Monday, February 24,
2020. The Kansas Supreme Court entered judgment on October 25, 2019. See State
v. Johnson, Case No. 116458, 450 P.3d 790 (Kan. 2019). A copy of the Kansas Su-

preme Court’s opinion is attached as Exhibit 1. This Court’s jurisdiction would be
 

invoked under 28 U.S.C. § 1257(a). Kansas’s time to file a writ of certiorari in this
Court will currently expire on January 28, 2020. This application is being filed more
than 10 days before the date, and no prior application has been made in this case.

This case concerns the mens rea necessary to sustain a conviction for a true
threat. Kansas law makes it a crime to utter a threat “in reckless disregard of the
risk of causing” the listener to be in fear of violence. Kan. Stat. Ann. § 21-5415(a)(1).
The Kansas Supreme Court held that the First Amendment precludes imposition of
criminal liability for recklessly uttered threats. (The Kansas Supreme Court reached
the same conclusion in another case decided on the same day. See State v. Boetiger,
Case No. 115387, 450 P.3d 805 (Kan. 2019). Kansas is seeking a similar extension
with regard to that decision, too.). That holding conflicts with holdings of the Supreme
Courts of Georgia and Connecticut, which have held that the First Amendment per-
mits imposition of criminal liability under similar state statutes. See State v. Taupier,
193 A.8d 1 (Conn. 2018); Major v. State, 800 S.E.2d 348 (Ga. 2017). See also Elonis v.
United States, 185 S. Ct. 2001 (2015) (declining to answer this question with regard
to 18 U.S.C. § 875 despite separate opinions from Justices Alito and Thomas urging
resolution).

Undersigned counsel is working diligently to prepare a petition for writ of cer-
tiorari, but additional time is necessary to complete and file a petition for writ of
certiorari. In particular, the State recently presented three arguments to this Court
in twenty-eight days. See Kahler v. Kansas, Case No. 18-6135 (argued October 7,

2019); Kansas v. Garcia, Case No. 17-834 (argued October 16, 2019); Kansas v. Glover,

2
Case No. 18-556 (argued November 4, 2019). Preparation for those arguments con-
sumed considerable resources within the office and caused a backlog of work that has
not yet been resolved. In addition, undersigned counsel anticipates that multiple hol-
idays in November and December will reduce staffing within the office. The State of
Kansas therefore requests a modest extension of 32 days.

Wherefore, the State of Kansas respectfully requests that an Order be entered
extending the time to file a petition for writ of certiorari up to and including February

24, 2020.

Respectfully submitted,

Toby Cr
Solicitor General of Kansas
Office of the Kansas Attorney
General Derek Schmidt
120 SW 10th Avenue, 2nd Floor
Topeka, Kansas 66612-1597
Phone: (785) 296-2215
Fax: (785) 291-3875
toby.crouse@ag.ks.gov

Counsel for Petitioner

December 17, 2019
